TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                         Statistical Portrayal of the Tax
                       Exempt Bonds Office’s Enforcement
                        Activities From Fiscal Year 2005
                           Through Fiscal Year 2010



                                          August 3, 2012

                              Reference Number: 2012-10-087




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website       | http://www.tigta.gov
                                                   HIGHLIGHTS


STATISTICAL PORTRAYAL OF THE TAX                       because they help ensure the municipal bond
EXEMPT BONDS OFFICE’S                                  exemption from Federal income tax is not being
ENFORCEMENT ACTIVITIES FROM                            abused.
FISCAL YEAR 2005 THROUGH                               The TEB office more than doubled the number
FISCAL YEAR 2010                                       of examinations conducted per year since
                                                       TIGTA last reviewed enforcement activities from
                                                       FYs 2002 through 2004. Assessments based
Highlights                                             on examinations conducted from FYs 2005
                                                       through 2010 total more than $84 million. The
Final Report issued on August 3, 2012                  TEB office accomplished these results while
                                                       significantly decreasing the amount of time it
Highlights of Reference Number: 2012-10-087            spends examining municipal bonds from more
to the Internal Revenue Service Acting                 than 100 staff days per examination in FY 2002
Commissioner for the Tax Exempt and                    to approximately eight staff days in FY 2010.
Government Entities Division.
                                                       However, the TEB office still spends a
IMPACT ON TAXPAYERS                                    substantial amount of time examining compliant
                                                       bonds. Similar to a prior audit, TIGTA
State and local governments have outstanding           determined that more than one-half of the
debt of more than $3.7 trillion dollars in             examinations conducted by the TEB office do
municipal bonds, and hundreds of millions of           not uncover noncompliance. Finally, TIGTA
dollars in new municipal bonds are issued each         found that time expended on misconduct
year. The Tax Exempt Bonds (TEB) office’s              investigations was not always tracked.
primary method to ensure bonds are in
compliance with tax laws is through its                WHAT TIGTA RECOMMENDED
Examination Program, and it has dramatically
                                                       During the audit, TIGTA recommended that the
increased coverage of the municipal bond sector
                                                       TEB office provide guidance to its employees to
by conducting more examinations. However,
                                                       ensure time captured relative to misconduct
the TEB office has minimal information to select
                                                       investigations is complete. The TEB office took
municipal bonds for examination and continues
                                                       appropriate action prior to the issuance of this
to use its limited resources examining compliant
                                                       report.
bonds. This results in an increased burden on
the compliant bond issuers involved in these
examinations.
WHY TIGTA DID THE AUDIT
This review addresses the major management
challenge of Tax Compliance Initiatives. The
overall objective was to review statistical data for
the TEB office’s enforcement activities from
October 2004 through September 2010 to
assess the office’s efforts in identifying
noncompliant bonds.
WHAT TIGTA FOUND
The Congressional Research Service estimates
that $309.9 billion in Federal tax will not have to
be paid for Fiscal Years (FY) 2012 through 2016
because interest income from municipal bonds
is exempt from Federal income taxes. The
TEB office’s enforcement activities are important
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            August 3, 2012


 MEMORANDUM FOR ACTING COMMISSIONER, TAX EXEMPT AND GOVERNMENT
                ENTITIES DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Statistical Portrayal of the Tax Exempt Bonds
                             Office’s Enforcement Activities From Fiscal Year 2005 Through
                             Fiscal Year 2010 (Audit # 201110028)

 This report presents the results of our review of statistical data for the Tax Exempt Bonds (TEB)
 office’s enforcement activities from October 2004 through September 2010 to assess the office’s
 efforts in identifying noncompliant bonds. This review was conducted as part of our Fiscal Year
 2012 Annual Audit Plan and addresses the major management challenge of Tax Compliance
 Initiatives.
 During the audit, we recommended that the TEB office provide guidance to TEB office
 employees to ensure time captured relative to misconduct investigations is complete. The
 TEB office took appropriate action prior to the issuance of this report. In addition, TEB office
 management reviewed the report before it was issued and offered clarifying comments and
 suggestions which have been taken into account.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report results. Please contact me at (202) 622-6510 if you have questions or Russell P. Martin,
 Acting Assistant Inspector General for Audit (Management Services and Exempt Organizations),
 at (202) 622-8500.
                              Statistical Portrayal of the Tax Exempt Bonds Office’s
                                           Enforcement Activities From
                                    Fiscal Year 2005 Through Fiscal Year 2010




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Municipal Bond Examinations Have Risen Dramatically ............................ Page 3
          High Percentage of Examinations Continue to Involve
          Compliant Bonds .......................................................................................... Page 6
          Examination Assessments Increased Dramatically but Continue to
          Vary From Year to Year ............................................................................... Page 7
          Manual Classification Is the Largest Source of Examinations
          but Yields Less than Other Sources .............................................................. Page 10
          Misconduct Investigations Have Decreased and Management
          Information Relating to These Investigations Is Not Always Complete ...... Page 11

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 14
          Appendix II – Major Contributors to This Report ........................................ Page 16
          Appendix III – Report Distribution List ....................................................... Page 17
          Appendix IV – Outcome Measure ................................................................ Page 18
          Appendix V – Form 8038 Series of Information Returns............................. Page 19
         Statistical Portrayal of the Tax Exempt Bonds Office’s
                      Enforcement Activities From
               Fiscal Year 2005 Through Fiscal Year 2010




                    Abbreviations

AIMS          Audit Inventory and Management System
FTE           Full-Time Equivalent
FY            Fiscal Year
I.R.C.        Internal Revenue Code
IRS           Internal Revenue Service
TEB           Tax Exempt Bonds
WebETS        Web-Based Employee Technical Time System
                          Statistical Portrayal of the Tax Exempt Bonds Office’s
                                       Enforcement Activities From
                                Fiscal Year 2005 Through Fiscal Year 2010




                                             Background

State and local governments have outstanding debt of more than $3.7 trillion dollars in municipal
bonds, and hundreds of millions of dollars in new municipal bonds are issued each year. These
bonds provide for the building of public projects such as courthouses, hospitals, airport
expansions, and highways. Municipal bonds are federally subsidized by allowing bondholders to
earn tax-exempt interest income or providing a tax credit, or by providing State or local
governments with a refundable credit payment from the Federal Government.
The mission of the Internal Revenue Service’s (IRS) Tax
Exempt Bonds (TEB) office is to fairly administer the
                                                                            Municipal bonds are used to
Federal tax laws applicable to municipal financing and to                 raise large amounts of capital to
provide customers with top quality service by applying                       finance the construction of
the tax law with integrity and fairness. The TEB office’s                      public projects such as
primary method of ensuring municipal bonds are in                           courthouses, hospitals, and
compliance with tax laws is through its Examination                              airport expansions.
Program. Examinations are conducted to identify
noncompliance with tax laws and abuse, such as profiting
from the investment of bond proceeds, known as
arbitrage.1 In addition, the TEB office conducts
initiatives and performs investigations to determine if
promoters of municipal bonds who engage in misconduct
should be penalized under Internal Revenue Code (I.R.C.)
Section (§) 67002 or referred to the IRS’s Office of
Professional Responsibility.
TEB office management establishes a yearly workplan to provide guidance for selecting
municipal bonds for examination based on issues and trends identified from prior examinations,
compliance questionnaires, outreach activities, and other internal or external sources. The risk of
bond issue noncompliance can be high due to the large dollar amounts involved in municipal
bonds and the fact that bond proceeds may not be immediately used, increasing the risk for
arbitrage.




1
 Arbitrage is the investment of bond proceeds at a higher interest rate in order to generate a profit.
2
 I.R.C. § 6700 (2004) imposes a penalty for promoting an abusive tax shelter while making a false or fraudulent
misrepresentation as to any material matter or for making a material gross valuation overstatement as to any material
matter.
                                                                                                             Page 1
                         Statistical Portrayal of the Tax Exempt Bonds Office’s
                                      Enforcement Activities From
                               Fiscal Year 2005 Through Fiscal Year 2010



In a previous audit,3 we determined that challenges
existed for the TEB office to improve enforcement of                     The Tax Exempt Bonds office
                                                                        has relatively little information
the tax law. For example, we determined that more than                  upon which to select municipal
one-half of the bonds the TEB office examined between                   bonds for examination that are
Fiscal Year (FY) 2002 and FY 2004 were compliant                          likely to be noncompliant.
with tax laws. In addition, the TEB office has minimal
information to select municipal bonds for examination.
For example, the various Form 8038 information
returns4 are required to be filed shortly after the bond is
issued. However, there is no requirement for subsequent
filing, even though the bond structure could change
during the life of the bond, which can be 30 years or
more.
The purpose of this audit was to analyze the TEB office’s enforcement results since our prior
review. This review was performed at the TEB Headquarters Office in Washington, D.C., the
TEB Compliance and Program Management office in St. Louis, Missouri, and the
Denver, Colorado, field office, during the period July 2011 through March 2012. With the
exception of evaluating internal controls regarding the tracking of penalty investigations, we did
not assess internal controls because it was not applicable within the context of our audit
objective. Otherwise, we conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




3
  Treasury Inspector General for Tax Administration, Ref. No. 2005-10-186, Statistical Portrayal of the Tax Exempt
Bonds Office’s Enforcement Activities From Fiscal Year 2002 Through Fiscal Year 2004 (Sept. 2005).
4
  See Appendix V for a list of Form 8038 information returns.
                                                                                                          Page 2
                          Statistical Portrayal of the Tax Exempt Bonds Office’s
                                       Enforcement Activities From
                                Fiscal Year 2005 Through Fiscal Year 2010




                                      Results of Review

The Congressional Research Service estimates that $309.9 billion in Federal taxes will not have
to be paid for FYs 2012 through 2016 because interest income from municipal bonds is exempt
from Federal income taxes. The TEB office’s enforcement activities are important because they
help ensure the municipal bond exemption from Federal income tax is not abused.
The TEB office more than doubled the number of examinations conducted per year since we last
reviewed enforcement activities covering the period FY 2002 through FY 2004 and has assessed
more than $84 million in sanctions5 between FYs 2005 and 2010. The TEB office accomplished
these results while significantly decreasing the amount of time it spends examining municipal
bonds from more than 100 staff days per examination in FY 20026 to approximately eight staff
days per examination in FY 2010.7 In addition, the TEB office conducts examinations on late
filed bond information returns and secures delinquent returns.8
While the TEB office is uncovering noncompliance through its examination program and
completing examinations quicker, it still spends a substantial amount of time examining
compliant bonds. Similar to our prior audit, we determined that more than one-half of the
examinations conducted by the TEB office do not uncover noncompliance. In addition, our
analysis identified that the total dollar assessments on noncompliant bonds fluctuates
considerably from year to year. Finally, we found that time expended on misconduct
investigations was not always tracked.

Municipal Bond Examinations Have Risen Dramatically
In our previous report, we noted that the number of bond examinations had increased to almost
400 examinations per year, even though the number of examiners in the TEB office had
remained constant (approximately 22). Since that time, the TEB office has increased its staff of
examiners and the number of examinations has increased dramatically. Figure 1 shows the
TEB office closed approximately two times the number of examinations in FY 2010 than in any
of the prior five fiscal years.


5
  A sanction is a monetary penalty used to enforce the tax law.
6
  FY 2002 was the first year reviewed in the prior audit of TEB office enforcement statistics.
7
  FY 2010 was the last year reviewed in the current audit of TEB office enforcement statistics.
8
  Although these delinquent and late filed returns are examinations, they are limited to a review of compliance with
the filing requirements and do not include a review of compliance with other qualification requirements. As such,
they are very limited in scope and are not included in the figures in the remainder of the report. For example, in
FY 2010, the TEB office identified and secured more than 600 municipal bond returns that had not been filed or had
not been filed timely.
                                                                                                            Page 3
                          Statistical Portrayal of the Tax Exempt Bonds Office’s
                                       Enforcement Activities From
                                Fiscal Year 2005 Through Fiscal Year 2010



                        Figure 1: Number of Closed Examinations From
                                   FY 2005 Through FY 2010




         Source: Audit Inventory and Management System (AIMS)9 data for FYs 2005 through FY 2010.10

Figure 2 shows the number of TEB office Full-Time Equivalents (FTE)11 increased over the past
four fiscal years.12 The number of FTEs applied to examination activities in the TEB office also
increased over the past four fiscal years. This increase in FTEs continues the IRS’s commitment
of devoting resources to its enforcement program.




9
  The AIMS is a computer system used by the Tax Exempt and Government Entities Division to control returns,
input assessments/adjustments to the Master File, and provide management information reports. The Master File is
the IRS database that stores various types of taxpayer account information, including individual, business, and
employee plans and exempt organizations data.
10
   The TEB office could not reconcile this information with its own inventory reports. However, the AIMS data
used in our analysis were provided by TEB office management and they generally agreed with our analysis
methodology. In addition, the TEB office attributed some differences to manually removed error records from its
inventory reports, but does not have historical records to reconcile to our figures.
11
   A measure of labor hours in which one FTE is equal to eight hours multiplied by the number of compensable days
in a particular fiscal year. For FY 2008, one FTE was equal to 2,096 staff hours; for FYs 2007, 2009, and 2010,
one FTE was equal to 2,088 staff hours.
12
   Data were available only for FYs 2007 through 2010 from the IRS’s Tax Exempt and Government Entities
Division Web Technical Time Reporting System. This system provides Tax Exempt and Government Entities
Division employees a web-based application to establish cases, maintain their inventory, and report their time as it is
applied.
                                                                                                              Page 4
                            Statistical Portrayal of the Tax Exempt Bonds Office’s
                                         Enforcement Activities From
                                  Fiscal Year 2005 Through Fiscal Year 2010



                 Figure 2: Total FTEs Expended in the TEB Office Versus
              FTEs Expended for Examinations From FY 2007 Through FY 2010




           Source: Tax Exempt and Government Entities Division Technical Time Reporting System.

The increase in employees was in part due to hiring for the large number of bond-related
provisions included in the American Recovery and Reinvestment Act of 2009 (Recovery Act).13
The TEB office is responsible for ensuring continued compliance with the municipal bond
Recovery Act provisions.
In addition, we identified that the time spent examining municipal bonds decreased dramatically.
For example, in our prior report, we identified that the TEB office spent more than 100 staff days
per municipal bond examination in FY 2002. Whereas, in FY 2010, the TEB office significantly
reduced the staff days to an average of approximately eight staff days per examination.




13
     Pub. L. No. 111-5, 123 Stat. 115 (2009).
                                                                                                  Page 5
                         Statistical Portrayal of the Tax Exempt Bonds Office’s
                                      Enforcement Activities From
                               Fiscal Year 2005 Through Fiscal Year 2010



High Percentage of Examinations Continue to Involve Compliant
Bonds
In our prior report, we identified that, for FY 2002 through FY 2004, more than 60 percent of the
bonds examined by the TEB office were compliant. This review continues to show the
TEB office is expending significant resources examining compliant bonds. For example, the
percentage of examination cases that were identified as compliant has varied from a low of
48 percent in FY 2005 to a high of 66 percent in FY 2009. The six-year average between
FY 2005 and FY 2010 is 58 percent,14 which is lower than the three-year average detailed in our
previous report. Figure 3 provides a breakdown of the examinations conducted in FY 2005
through FY 2010 by whether the examination identified bond noncompliance versus compliance.
                        Figure 3: Number of Examinations Identifying
                          Noncompliance Versus Compliance From
                                  FY 2005 Through FY 2010




           Source: AIMS data for FY 2005 through FY 2010.




14
  This percentage includes claims for refund. The TEB office examines all claims for refund to determine whether
funds should be refunded to the bond issuer.
                                                                                                         Page 6
                          Statistical Portrayal of the Tax Exempt Bonds Office’s
                                       Enforcement Activities From
                                Fiscal Year 2005 Through Fiscal Year 2010



Figure 4 shows the percentage of examinations of compliant bonds from FY 2005 through
FY 2010.
             Figure 4: Percentage of Examinations Resulting in No Change
                            From FY 2005 Through FY 2010




            Source: AIMS data for FY 2005 through FY 2010.

Examination Assessments Increased Dramatically but Continue to
Vary From Year to Year
In our prior review, we determined that assessments ranged from approximately $7 million per
year to more than $14 million per year with an average bond examination assessment of between
$19,000 and $40,000. Since that time, the average assessment has increased dramatically.
Similar to our last report, we identified that the total dollars assessed continues to fluctuate year
to year. Figures 5 and 6, respectively, provide the total and average assessments for bonds
determined to be noncompliant with the tax law.15 Figures 5 and 6 do not include assessment
amounts proposed by the TEB office but appealed by the bond issuer.


15
  These do not include claims for refund of arbitrage payments, bonds that are determined to be taxable, delinquent
returns obtained, written advisory, referrals, I.R.C. § 6700 investigations, global settlements, and changes made to
related returns.
                                                                                                             Page 7
                         Statistical Portrayal of the Tax Exempt Bonds Office’s
                                      Enforcement Activities From
                               Fiscal Year 2005 Through Fiscal Year 2010



                       Figure 5: Total Examination Assessments From
                                  FY 2005 Through FY 2010




        Source: AIMS data for FY 2005 through FY 2010.

In Figure 5, the numbers within the bars represent the number of examinations with
assessments,16 and the numbers above the bars are the total assessment amounts rounded to
millions. This indicates that total assessment dollars are not dependent on the number of
examinations with assessments. In addition, FYs 2006 and 2008 include four unusually large
assessments totaling approximately $37 million.




16
 Municipal bond examinations can be closed as a change examination, indicating noncompliance; however, they
may not always have an associated penalty assessment. Therefore, the number of change cases in Figure 3 will not
match the number of examinations that resulted in assessments in Figures 5 and 6.
                                                                                                         Page 8
           Statistical Portrayal of the Tax Exempt Bonds Office’s
                        Enforcement Activities From
                 Fiscal Year 2005 Through Fiscal Year 2010



Figure 6: Average Assessments From FY 2005 Through FY 2010




Source: AIMS data for FY 2005 through FY 2010.




                                                                    Page 9
                          Statistical Portrayal of the Tax Exempt Bonds Office’s
                                       Enforcement Activities From
                                Fiscal Year 2005 Through Fiscal Year 2010



Manual Classification Is the Largest Source of Examinations but
Yields Less than Other Sources
In our prior review, manual classification was the largest source of examinations. This trend
continued for this review. During manual classification, a revenue agent reviews bond returns to
identify those that should be examined and the priority of their selection. The selection of bonds
for examination is based on the revenue agent’s identification of potential noncompliant issues
related to the municipal bond. Our analysis shows the sources of examinations for
FYs 2005 through 2010 were manual classification of municipal bond returns for examination,
projects,17 claims for recovery of arbitrage payments, referrals,18 and all others. Figure 7 shows
the source of examinations, by percentage, for FYs 2005 through FY 2010.
           Figure 7: Source of Examinations From FY 2005 Through FY 2010




           Source: AIMS data for FY 2005 through FY 2010.

Similar to what we previously reported, the TEB office continues to examine a high percentage
of bonds that comply with the tax law (58 percent for all bonds, and 70 percent when claims for
refund of arbitrage are removed). When examining bonds identified through manual
classification, 67 percent of the bonds reviewed were compliant with the tax law. Those found to

17
   Projects are examinations identified from the Returns Inventory and Classification System. The Returns
Inventory and Classification System provides user access to computer information related to the filing and
processing of forms for the Tax Exempt and Government Entities Division.
18
   A document or other communication, e.g., telephone call, received from a source outside the IRS, which alleges
potential noncompliance with the tax law.
                                                                                                          Page 10
                         Statistical Portrayal of the Tax Exempt Bonds Office’s
                                      Enforcement Activities From
                               Fiscal Year 2005 Through Fiscal Year 2010



be noncompliant were assessed more than $24 million ($209 per hour). However, when
examining bonds identified from all other sources, 77 percent of the bonds were compliant with
the tax law, but those that were found to be noncompliant were assessed more than $56 million
($438 per hour).

Misconduct Investigations Have Decreased and Management
Information Relating to These Investigations Is Not Always Complete
In our prior review, we determined the TEB office was conducting between 16 and
44 investigations per year to identify bond promoters involved in misconduct19 and had made
penalty assessments of more than $44 million in three fiscal years. However, the number of
I.R.C. § 6700 misconduct investigations decreased from 21 in FY 2005 to two in FY 2010, with
total penalties of approximately $88 million for all six years. TEB office management stated
they believe the reason for the decrease in cases can be attributed to the suspension of
eight investigations in FY 2006 and 2007 that they plan to reactivate in the future, and that
highly public criminal prosecutions have created a deterrent effect.
I.R.C. § 6700 investigations can be started after a bond examination is underway and potential
misconduct is identified or can be opened as a new investigation. If misconduct is identified, a
penalty can be assessed against the bond promoter under I.R.C. § 6700. If the level of the
misconduct does not warrant an I.R.C. § 6700 penalty, a miscellaneous penalty can be assessed
using the same basis for calculating the I.R.C. § 6700 penalty; i.e., the penalty amount may be
the same for an I.R.C. § 6700 penalty and a miscellaneous penalty.




19
  An example of misconduct is when a bond promoter misleads or causes others to be misled about material matters
in the issuance of a municipal bond under a specific I.R.C. section.
                                                                                                       Page 11
                          Statistical Portrayal of the Tax Exempt Bonds Office’s
                                       Enforcement Activities From
                                Fiscal Year 2005 Through Fiscal Year 2010



Figure 8 shows the number of cases closed each year with I.R.C. § 6700 and miscellaneous
penalty amounts.
                   Figure 8: Total Cases Closed and I.R.C. § 6700 and
              Miscellaneous Penalty Amounts for FY 2005 Through FY 2010




         Source: I.R.C. § 6700 spreadsheet provided by the TEB office and our research of the IRS Master
         File.

Tracking of misconduct investigations needs to be improved
The TEB office does not have a management information system to track the amount of time
applied to I.R.C. § 6700 penalty investigations, but instead uses several other systems.
        Time expended for some I.R.C. § 6700 investigations is applied to the primary20
         examination case and is not tracked independently.
        Time expended for some I.R.C. § 6700 investigations that are closed with closing
         agreements21 is tracked on the AIMS.



20
   The primary examination case is the underlying bond examination or could be one or more of the approved
participant examination cases.
21
   Closing agreements are a mechanism to settle various tax disputes to negotiate a settlement with an issuer of a
bond the IRS considered noncompliant.
                                                                                                             Page 12
                     Statistical Portrayal of the Tax Exempt Bonds Office’s
                                  Enforcement Activities From
                           Fiscal Year 2005 Through Fiscal Year 2010



      Time for all I.R.C. § 6700 investigations should be recorded on the Web-Based
       Employee Technical Time System (WebETS).
Our analysis of the AIMS identified time charges for seven (12 percent) of the 57 misconduct
investigations. We also performed analysis of the WebETS data provided by TEB office
management and did not identify any time charges for working I.R.C. § 6700 investigations. We
did not perform analysis to identify time that may have been absorbed into the primary
examination cases.
TEB office management stated field specialists may not understand the use of WebETS Project
Code 5054 to charge time for I.R.C. § 6700 investigations. During the audit, we recommended
that the TEB office provide guidance on the use of WebETS Project Code 5054 to TEB office
employees to ensure time captured relative to misconduct investigations is complete. The
TEB office took appropriate action prior to the issuance of this report.




                                                                                       Page 13
                         Statistical Portrayal of the Tax Exempt Bonds Office’s
                                      Enforcement Activities From
                               Fiscal Year 2005 Through Fiscal Year 2010



                                                                                                 Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to review relevant statistical data for the TEB office’s enforcement
activities from October 2004 through September 2010 to assess the office’s efforts in identifying
noncompliant bonds. To accomplish this objective, we:
I.      Obtained and reviewed data relating to the TEB office’s enforcement activity.
        A. Obtained Tax Exempt and Government Entities Division Technical Time Reporting
           System and WebETS data from October 2004 through September 2010 and
           determined the time applied to the Examination Program.
        B. Obtained an AIMS1 extract and identified all examinations controlled on the AIMS
           since October 2004.
        C. Evaluated the AIMS data to determine the validity and reliability by performing
           manual testing to ensure the accuracy of fields, i.e., date fields contained date
           information and dollar fields contained dollar information, and compared judgmental
           samples of the data to information from the Integrated Data Retrieval System.2 The
           AIMS was found to contain valid and reliable data. Also, WebETS data were
           evaluated by performing manual testing to ensure the accuracy of the fields. We
           found the data contained incomplete fields, but the data were suitable for our use.
II.     Analyzed the WebETS and AIMS data for trends in enforcement activities for closed
        examination cases.
        A. Determined sources for examinations by fiscal year.
        B. Determined staffing metrics by fiscal year.
        C. Determined examination results by fiscal year.
III.    Compared the examination results from Step II. to the results of our FY 2005
        enforcement statistics audit.3



1
  The AIMS is a computer system used by the Tax Exempt and Government Entities Division to control returns,
input assessments/adjustments to the Master File, and provide management information reports.
2
  IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
3
  Treasury Inspector General for Tax Administration, Ref. No. 2005-10-186, Statistical Portrayal of the Tax Exempt
Bonds Office’s Enforcement Activities From Fiscal Year 2002 Through Fiscal Year 2004 (Sept. 2005).
                                                                                                         Page 14
                      Statistical Portrayal of the Tax Exempt Bonds Office’s
                                   Enforcement Activities From
                            Fiscal Year 2005 Through Fiscal Year 2010



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. With the exception of
evaluating internal controls regarding the tracking of penalty investigations, we did not assess
internal controls because doing so was not applicable within the context of our objective.




                                                                                          Page 15
                    Statistical Portrayal of the Tax Exempt Bonds Office’s
                                 Enforcement Activities From
                          Fiscal Year 2005 Through Fiscal Year 2010



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
Exempt Organizations)
Troy D. Paterson, Director
Gerald T. Hawkins, Audit Manager
Andrew J. Burns, Lead Auditor
Yolanda D. Brown, Auditor
Michael A. McGovern, Auditor




                                                                                  Page 16
                    Statistical Portrayal of the Tax Exempt Bonds Office’s
                                 Enforcement Activities From
                          Fiscal Year 2005 Through Fiscal Year 2010



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Acting Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Acting Director, Government Entities, Tax Exempt and Government Entities Division SE:T:GE
Acting Director, Tax Exempt Bonds, Tax Exempt and Government Entities Division
SE:T:GE:TEB
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                  Page 17
                      Statistical Portrayal of the Tax Exempt Bonds Office’s
                                   Enforcement Activities From
                            Fiscal Year 2005 Through Fiscal Year 2010



                                                                                Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Reliability of Information – Actual; 50 records affected (see page 11).

Methodology Used to Measure the Reported Benefit:
The TEB office does not have a management information system to track the amount of time
applied to I.R.C. § 6700 penalty investigations, but instead uses several other systems. We
performed analysis of the AIMS and the WebETS and identified time charges for
seven (12 percent) of 57 investigations. Therefore, time was not tracked for
50 investigations (57 – 7 = 50).




                                                                                         Page 18
                        Statistical Portrayal of the Tax Exempt Bonds Office’s
                                     Enforcement Activities From
                              Fiscal Year 2005 Through Fiscal Year 2010



                                                                                  Appendix V

            Form 8038 Series of Information Returns

Figure 1 provides a list of the information forms used to report issuances of tax-exempt
governmental obligations to the IRS.
                    Figure 1: Form 8038 Series of Information Returns

  Form Name                                         Form Title

 Form 8038          Information Return for Tax-Exempt Private Activity Bond Issues
                    Information Return for Build America Bonds and Recovery Zone Economic
 Form 8038-B
                    Development Bonds

 Form 8038-CP Return for Credit Payments to Issuers of Qualified Bonds

 Form 8038-G        Information Return for Tax-Exempt Governmental Obligations

                    Information Return for Small Tax-Exempt Governmental Bond Issues,
 Form 8038-GC
                    Leases, and Installment Sales

 Form 8038-R        Request for Recovery of Overpayments Under Arbitrage Rebate Provisions

 Form 8038-T        Arbitrage Rebate, Yield Reduction and Penalty in Lieu of Arbitrage Rebate

 Form 8038-TC Information Return for Tax Credit Bonds and Specified Tax Credit Bonds
Source: http://www.IRS.gov.




                                                                                           Page 19
